       OFFICE OF INSPECTOR GENERAL

                                      Catalyst for Improving the Environment



Evaluation Report




           EPA’s Homeland Security Role to
           Protect Air from Terrorist Threats
           Needs to be Better Defined


           Report No. 2004-M-000005


           February 20, 2004
                                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                                  WASHINGTON, D.C. 20460



                                                        February 20, 2004


MEMORANDUM

SUBJECT:            Evaluation Report:
                    EPA’s Homeland Security Role to Protect Air from Terrorist Threats
                    Needs to be Better Defined
                    Report No. 2004-M-000005

FROM:               Jeffrey K. Harris /s/
                    Director for Program Evaluation, Cross-Media Issues

TO:                 Mary Kruger
                    Director, EPA’s Office of Homeland Security


Attached is a copy of the subject final report. This report is part of our ongoing evaluation of U.S.
Environmental Protection Agency (EPA) activities to protect our nation from airborne terrorist threats.
We focused on EPA’s organizational framework for leading and coordinating its homeland security
activities and identified an issue that requires your attention. Specifically, we believe EPA should clarify
its homeland security role and responsibilities regarding air to enable it to properly prioritize and commit
resources to its traditional and homeland security missions.

This review is one of a series of reviews to identify how effectively EPA is fulfilling its homeland security
role and responsibilities, specifically in protecting the air from chemical or biological terrorism.1 Our
observations are based on information obtained from interviews with representatives from various EPA
program offices and external stakeholders. We also reviewed public laws, presidential directives,
EPA’s Strategic Plan for Homeland Security, the White House Office of Homeland Security’s
National Strategy for Homeland Security, and many other pertinent documents. We are performing
our evaluation in accordance with Government Auditing Standards, issued by the Comptroller
General of the United States.




          1
          Chemical threats are the deliberate release of a toxic gas, liquid, or solid that can poison people and the
environment. Biological threats are the deliberate release of biological substances that can cause illness or death.
Many agents can be inhaled, enter through a cut in the skin, or be ingested.



                                                                 1
Action Required

You are requested to provide a written response to this report within 90 days of the report date. You
should include a corrective action plan with agreed upon actions and milestone dates. We have no
objections to the further release of this report. If you or your staff have any questions regarding this
report, please contact me at 202-566-0831 or Lisa White at 215-814-2391. This report will be
available at http://www.epa.gov/oig/publications.htm.


EPA’s Longstanding and Expanded Mission to Protect Public Health
and the Environment

The Clean Air Act provides the principal framework for national, State, and local efforts to protect
ambient (outdoor) air quality and designates EPA to set health-based standards, which control
pollutants harmful to people and the environment. EPA's Strategic Plan states EPA is responsible to
protect and improve the air so it is healthy to breathe and reduces risk to human health and the
environment. Everyday, the average adult breathes over 3,000 gallons of air. Children breathe even
more air per pound of body weight and are thus more susceptible to any type of air pollutant.

EPA does not have clear statutory authority to establish and enforce health-based regulatory standards
for indoor air. However, EPA is given responsibility for cleaning up buildings and other sites
contaminated by chemical or biological agents resulting from terrorism. This responsibility is designated
to EPA by Presidential Decision Directive 62, signed in 1998, and the White House Office of
Homeland Security’s 2002 National Strategy for Homeland Security. 2

Section 104 of the Comprehensive Environmental Response, Compensation and Liability Act
(CERCLA) authorizes EPA to respond to releases of hazardous substances, pollutants, and
contaminants. A response is coordinated under the National Contingency Plan (NCP), which is the
implementing regulation for EPA’s Superfund program and provides guidelines and procedures for
responding. The NCP establishes the National Response Team, made up of 16 Federal agencies. The
applicability of the NCP to biological terrorist incidents is derived from the “pollutant and contaminant”
clause of CERCLA 104(a), which includes release or substantial threat of release into the environment
of etiological agents3 and other substances presenting imminent and substantial danger to human health
or welfare.




          2
          On October 8, 2001, President Bush established the Office of Homeland Security within the White House.
The Homeland Security Act was signed by President Bush on November 25, 2002, and created the new Department
of Homeland Security to provide overall coordination for anti-terrorism efforts. Even with the creation of the new
Department, the White House Office of Homeland Security will continue to exist.

          3
            Etiologic agents are those microorganisms that cause disease in humans and include bacteria, bacterial
toxins, viruses, fungi, rickettsiae, protozoans, and parasites.


                                                                 2
EPA has recently faced unprecedented challenges in responding to nationally significant incidents,
including the World Trade Center and Pentagon terrorist attacks, and the anthrax contaminations. EPA
was responsible for monitoring environmental conditions at the World Trade Center site, and for
developing and carrying out a plan for anthrax decontamination at the Capitol Hill locations. New
homeland security issues and challenges for EPA have necessitated a rigorous review of Agency
options, decisions, actions, and performance.

EPA released its Strategic Plan for Homeland Security in September 2002. The goals of the strategic
plan are organized into four mission-critical areas and include specific tactics to accomplish each goal.
Under the Critical Infrastructure Protection area of the Plan, EPA has unique programmatic
responsibilities and expertise related to the water and wastewater industries; the use, handling, storage,
release, and disposal of chemicals and chemical wastes at industrial facilities; and indoor air quality.

EPA Needs to Perform Responsibilities Designated by the Administrator

EPA's Office of Homeland Security does not have a framework in place to carry out its responsibilities
as designated by the Administrator. We acknowledge that EPA’s Office of Homeland Security was
recently created; however, the office was designed to be the central coordinating body for homeland
security in the Agency as well as serving as a single point of entry for homeland security matters with
other Federal departments and agencies.

In February 2003, the Administrator established EPA’s Office of Homeland Security within the Office
of the Administrator. The Administrator provided a list of responsibilities for the newly created office,
which are included in the following table.

                            Responsibilities of EPA’s Office of Homeland Security

               Leading and coordinating homeland security activities and policy
               development across all program areas, including tracking implementation of
               the Agency’s Strategic Plan for Homeland Security.

               Coordinating regularly with senior leadership within the Agency.

               Establishing a more centralized and efficient system for receiving and
               evaluating important classified communications from multiple sources.

               Supporting program and regional offices’ ability to “do business as usual,”
               while absorbing new responsibilities.

               Establishing a senior-level Policy Coordinating Committee, which will replace
               the Homeland Security Working Group.

               Serving as a single point of entry for homeland security matters with other
               Federal departments and agencies.




                                                        3
We spoke to officials from EPA’s Office of Homeland Security to determine whether there is an
Agency-wide framework in place to effectively manage this effort. We focused on the organizational
system using the Office of Inspector General’s User Guide - Assessing Organizational Systems. This
guide is a compilation of key program management practices consistent with the President’s
Management Agenda and the Government Performance and Results Act. At the time of our meeting,
officials from EPA’s Office of Homeland Security:

        •   were unable to identify all Agency-wide air homeland security responsibilities, goals, and
            expectations;
        •   did not have a system to coordinate efforts among EPA and other Federal agencies as well
            as external stakeholders; and
        •   could not ensure homeland security resources were being committed to the highest
            priorities.

We reviewed EPA's Strategic Plan for Homeland Security and found it has not clearly defined EPA’s
role and responsibilities related to airborne terrorist threats. Officials from EPA’s Office of Homeland
Security indicated the strategic plan is currently being revised because the initial plan, goals, tactics, and
time frames were unrealistic as a result of funding not being provided for EPA to implement the plan.
Discussions with the Office of Management and Budget validated EPA’s view.

In May 2003, EPA’s Office of Homeland Security officials informed us that they were in the process of
hiring a contractor to create a database to track the efforts and progress of the Agency on homeland
security issues. More recent discussion in October 2003 with EPA’s Office of Homeland Security
showed that this office is taking on a different role than originally planned. They are no longer hiring the
contractor to create a database of homeland security efforts; rather, EPA officials are having internal
discussions about creating a scaled-down version of the database. Officials from EPA’s Office of
Homeland Security also indicated their primary role will be to act as a liaison between EPA and the
Department of Homeland Security so that the Department of Homeland Security now has a point of
contact within EPA. They stated that before their office was created, it was difficult for external parties
to know who to contact in EPA since EPA is organized by media, whereas the White House and
Department of Homeland Security are organized by threat.

EPA’s Office of Homeland Security was designated by the Administrator as the central coordinating
body for homeland security; however, officials from this office could not identify the Agency-wide
initiatives for homeland security for air. Therefore, we canvassed the agency to identify efforts currently
underway. As shown in the following chart, EPA has several initiatives throughout various program
offices aimed at protecting our nation’s air from terrorist threats. We plan to conduct individual OIG
evaluations on these specific programs and activities to identify how well EPA is carrying out its
responsibilities and how EPA’s efforts are being coordinated to effectively prevent, protect, respond to,
and recover from such events.



                                                      4
                                     EPA’s Office of Homeland Security
                   Leads and coordinates homeland security efforts across all program areas


 Office of Solid Waste       Office of Research and            Office of Air and             Office of Prevention,
 and Emergency               Development’s National            Radiation -                   Pesticides, and Toxic
 Response -                  Homeland Security                 • Building Air Protection     Substances -
 Anthrax cleanups:           Research Center -                   Workgroup                   • Registration Process for
 • Capital Hill,             • Safe Buildings Program          • BioWatch Program              Bioterror Decontaminants
   Brentwood, AMI,           • Rapid Risk Assessment
   Hamilton, General           Program
   Services                  • Environmental
   Administration,             Technology Verification
   Department of State         Program (ETV)

 Note: These initiatives were identified during our interviews with EPA’s program offices and are not
 necessarily all-inclusive of the Agency’s efforts in this area.




Gaps Between EPA’s Traditional and Homeland Security Roles
Need to be Corrected

We found that some of EPA’s homeland security roles and responsibilities related to air protection are
limited and not well defined to enable EPA to be prepared for future events. In order to have a more
coordinated, comprehensive approach to homeland security, EPA’s Office of Homeland Security
should first identify EPA’s delegated homeland security responsibilities. Once they accomplished this
task, they should then amass, track, and oversee all EPA homeland security efforts. Following are
examples where gaps exist between EPA’s traditional and homeland security roles. We believe the
ambiguity of EPA’s role limits EPA from accomplishing its mission of protecting human health and the
environment.

BioWatch Program

The Department of Homeland Security, in concert with EPA, Department of Energy, Department of
Defense, and the Centers for Disease Control and Prevention, deployed an air sampling system to pre-
existing monitoring stations across the United States in January 2003. This program, called BioWatch,
is funded by the Department of Homeland Security and is designed to provide early detection of
releases of select biological agents in the air through a comprehensive protocol of monitoring and
laboratory analysis. According to EPA documentation describing the field sampling activities, the
BioWatch Program is an ambient air particulate sampling and analysis program whose goal is to
provide monitoring surveillance of biological contaminants at selected cities across the United States.
Routine air samples are collected at various locations using EPA’s Air Quality Monitoring Network
operated in partnership with State, local, and tribal environmental agencies. According to EPA
officials, the Agency’s primary role is to coordinate with the State/local agencies for the use of the
existing monitoring stations for the BioWatch program. As demonstrated in the following table and


                                                             5
confirmed through discussions with EPA officials, EPA plays a supporting role in BioWatch. This
program is a Department of Homeland Security program implemented by the local governments in
which BioWatch monitors are operating. As such, EPA has limited leverage over the program’s
ultimate success or failure. All threat information, release scenarios, and the justification for the
program were prepared by the Department of Homeland Security, not EPA.

              Traditional Role                        Homeland Security Role                              Gaps

 Clean Air Act requires EPA to set             BioWatch Program - Through an               1) Because the public
 limits on how much of a pollutant can         Interagency Agreement, EPA is               recognizes EPA as the primary
 be in the air anywhere in the United          responsible for the field portion of        agency designated to protect
 States. This enables all Americans to         this program including field                our nation’s air, and EPA’s
 have the same basic health and                deployment and sampling                     role is to facilitate the air
 environmental protections. EPA is             component.                                  sampling portion of the
 responsible for setting standards,                                                        program, EPA, not the
 which control pollutants harmful to           However, the Department of                  Department of Homeland
 people and the environment. The               Homeland Security is the prime              Security, could be held
 agency has regulated pollutants by            decision maker in:                          accountable by the public for
 developing health-based criteria                                                          environmental issues as a
 (science-based guidelines) as the             • selecting cities for sampling,            result of this program.
 basis for setting permissible levels.         • making resources available to
                                                 implement the program,                    2) Segmented roles and
 EPA's Strategic Plan echoes the               • setting program priorities and            responsibilities could lead to
 Clean Air Act and states that EPA is            direction,                                lack of accountability for the
 responsible to protect and improve the        • coordinating communication                program.
 air so it is healthy to breathe and             among all cooperating agencies,
 reduces risk to human health and the            and
 environment.                                  • ultimately insuring appropriate
                                                 implementation of the program.




Anthrax Response

Another example where gaps exist between EPA traditional and homeland security roles is the
response to releases of anthrax. Anthrax poses an imminent and substantial threat to human health and
the environment. Inhalation anthrax is one of the most serious forms of anthrax and was the cause of
illness and deaths in late 2001. According to EPA officials, there are currently five anthrax-
contaminated buildings that have an EPA On-Scene Coordinator4 assigned. At the time of our
interviews, 2 years after the contaminations, most of these buildings have not been declared safe to
re-enter. EPA is not the lead agency for these sites; instead, the EPA On-Scene Coordinator is there
to provide oversight and technical assistance to the building owner. Although EPA was heavily
involved in the anthrax response on Capital Hill, EPA’s involvement varied depending on the building.


         4
            The On-Scene Coordinator is the Federal official predesignated by EPA or the Coast Guard to coordinate
and direct the response.




                                                              6
As shown in the following table, since the September 11, 2001, and the anthrax incidents, EPA’s
responsibilities for emergency response have become ambiguous, and questions remain about EPA’s
role in future events.



          Traditional Role                   Homeland Security Role                             Gaps

 The Federal Response Plan             The White House Department of            1) EPA On-Scene Coordinators
 describes the responsibilities of     Homeland Security’s National             informed us that they do not have
 Federal departments following a       Strategy for Homeland Security           the authority or resources to lead in
 Presidential declaration of a         designates EPA, in the event of a        cleaning up anthrax-contaminated
 major disaster or emergency.          national incident, with the lead         buildings as designated by the
 This plan designates EPA, under       responsibility for decontaminating       White House National Strategy.
 Emergency Support Function            affected buildings and                   EPA officials indicated that the
 #10, as the primary agency to         neighborhoods and providing advice       lines of authority among agencies
 provide Federal support to State      and assistance to public health          and EPA’s individual role varied
 and local governments in              authorities in determining when it is    depending upon the agencies
 response to an actual or              safe to return to these areas.           involved.
 potential discharge and/or
 release of hazardous materials        The Initial National Response Plan       2) Activation of the Federal
 following a major disaster or         was prepared to enhance the ability      Response Plan is dependant on
 emergency.                            of the United States to prepare for      Presidential declaration. The Plan
                                       and manage domestic incidents by         was not activated for anthrax
 The National Contingency Plan         establishing a single,                   incidents.
 (NCP) states that if something        comprehensive national approach.
 happens on or from a Federal          In this plan, the Hazard Management      3) There is a potential disconnect
 facility (such as a hazardous         functional area refers to technical      between the Initial National
 release), and it is an emergency,     structures and systems that prepare      Response Plan and existing plans
 EPA is the On-Scene                   for and respond to chemical,             over lead agency roles.
 Coordinator lead. Once the            biological, radiological, nuclear, and
 event is determined to be under       explosive incidents regardless of the
 control, it is recognized as a non-   cause. The Department of
 emergency, therefore being the        Homeland Security is designated the
 responsibility of the Federal         primary Federal Agency and EPA is
 facility (building owner) to          listed as a support agency. Since
 conduct the cleanup.                  our initial review of the plan, it has
                                       been revised and no longer
                                       designates Federal leads for specific
                                       types of incidents. However, the plan
                                       has not been made final. The
                                       Department of Homeland Security is
                                       in the process of developing the final
                                       plan, which should specify leads for
                                       different types of incidents.



An EPA report, Challenges Faced During the Environmental Protection Agency’s Response to
Anthrax and Recommendations for Enhancing Response Capabilities - A Lessons Learned
Report, dated September 2002, substantiates that questions about EPA’s roles and responsibilities
exist. The report states that although CERCLA and the NCP provide authority to respond to biological
incidents, the NCP does not include a response plan for such incidents, and the Federal Response Plan


                                                          7
was not activated to coordinate the agencies involved in the response to anthrax on Capitol Hill. The
report further states that in the absence of the Federal Response Plan activation, there was not a clear
structure defining the interaction of the various agencies involved.

Priorities Need to Be Based on EPA’s Defined Role

We believe well defined roles and responsibilities should act as the drivers and motivation for the
Agency’s homeland security efforts, including the research initiated in support of homeland security
needs. Recently, EPA established the National Homeland Security Research Center. The Center’s
mission, over its proposed 3-year life, is to focus on methods to clean up contaminated buildings,
protect the nation’s drinking water supplies, and improve risk assessment methods that protect
emergency responders and inform local decision makers. The Center’s Safe Buildings Program
focuses on biological and chemical hazards in the indoor environment. Program officials have prepared
a research action plan to produce technologies and guidance needed by building owners and managers,
emergency responders, decontamination crews, and waste disposal personnel.

The President’s Management Agenda states that science and technology are critically important to
keeping our nation’s economy competitive and for addressing challenges we face in health care,
defense, energy production and use, and the environment. As a result, every Federal research and
development dollar must be invested as effectively as possible. The National Academy of Sciences
peer reviewed EPA’s draft Safe Buildings Program research action plan. The National Academy of
Sciences indicated that the primary areas of research associated with an effective building
decontamination strategy are presented in the plan; however, the program time frame is too short to
effectively accomplish all the goals set forth in the plan. The report states that EPA has expertise in the
area of decontamination and disposal and should focus the remaining time of the program toward
improving these aspects of its work. Again, we believe EPA should first identify its delegated homeland
security role and responsibilities and then prioritize and proceed with its research efforts.

Conclusion

Because EPA’s air-related homeland security activities are cross-media and housed in various program
offices, EPA’s Office of Homeland Security should oversee and track these activities to assess their
progress and review the results of their investment. Also, many homeland security initiatives require
coordinated efforts of two or more agencies; hence, steps should be taken to prevent program overlap
and ensure all crosscutting agency efforts are well coordinated.

Clearly defined roles and responsibilities enable EPA officials to effectively perform their duties in
meeting the challenges EPA faces in protecting the nation against the threat of terrorism. EPA
emergency response expertise has been relied on in responding to significant incidents, including the
World Trade Center and Pentagon terrorist attacks, and the anthrax contaminations. Gaps that exist



                                                     8
between EPA’s traditional and homeland security roles cause uncertainty and could complicate or delay
a response should a future incident occur.

Recommendations

We recommend that EPA’s Office of Homeland Security:

1.    Clarify EPA’s future role and responsibilities to enable it to properly prioritize and commit
      resources to its traditional and homeland security missions.

2.    Establish and maintain a database to oversee and track the progress for all EPA homeland
      security efforts.

Agency Response and Office of Inspector General Evaluation

EPA provided comments to our draft report and, where appropriate, we made revisions. We included
EPA’s response as Appendix A. We did not include the attachment to the Agency’s response, but
addressed the issues as appropriate.

EPA generally agreed with our recommendations citing the need for clarification of EPA’s future
homeland security role and responsibilities, and of establishing a system to monitor the progress of
EPA’s homeland security efforts. The response does include a list of actions currently underway,
including updating the Homeland Security Strategic Plan and holding weekly information sessions
with EPA program offices. In response to the final report, EPA’s Office of Homeland Security should
submit a timeline for completion of its actions.

EPA’s response is unclear on its position regarding EPA’s role in emergency response. For example,
EPA indicated its role in responding to terrorist incidents is not, and should not, be the same in all
cases, and this is consistent with the National Response Plan. We agree. However, further in the
response, EPA disagrees with our report noting that there are potential gaps between EPA’s traditional
and homeland security roles as they relate to emergency response. The response further states that
EPA is participating on the writing group developing the new National Response Plan, and has raised
the potential for inconsistencies between the role of the On-Scene Coordinator and the Primary Federal
Official.

Also, EPA stated it would clarify the roles and responsibilities of EPA’s Office of Homeland Security
and the distinction between the responsibilities delegated to EPA’s Office of Homeland Security versus
those that remain with EPA’s Program Offices and Regional Offices. However, it stops short of
clarifying any role other than that of EPA’s Office of Homeland Security. Our report does not claim
that EPA’s Office of Homeland Security does not know its responsibilities; rather, we believe this office
is not fulfilling its responsibilities as delegated by the EPA Administrator.

                                                     9
Finally, EPA stated it remains committed to actively implementing responsibilities that are clearly
delegated to EPA pursuant to Homeland Security Presidential Directives and national response plans
and structures. The response further states it is important to recognize that homeland security is a new
and evolving priority for EPA and many other Federal agencies, including the Department of Homeland
Security. We recognize that homeland security is a new priority, which is why it is essential for EPA to
take the initiative, be proactive, and ensure that the responsibilities for which it is most experienced
remain in its jurisdiction. We do not believe it is clear what homeland security responsibilities are
delegated to EPA. It is important for EPA’s Office of Homeland Security to determine the Agency’s
delegated role, because uncertainty could complicate or delay a response should a future incident
occur.




                                                   10
                                                                                         Appendix A

                                      EPA Response

                                           January 20, 2004

MEMORANDUM

SUBJECT:       Draft Evaluation Memorandum: EPA’s Homeland Security Role to
               Protect Air from Terrorist Threats Must be Better Defined
               Assignment No. 2003-000699

TO:            Jeffrey K. Harris
               Director for Program Evaluation, Cross-Media Issues

FROM:          Mary U. Kruger
               Director, Office of Homeland Security

      This memorandum provides the comments of the Administrator’s Office; Offices of Air and
Radiation, Research and Development, and Solid Waste and Emergency Response; as well as Regions
2 and 3, on the draft evaluation of EPA’s homeland security role to protect air.

      We support the goal of clarifying EPA’s future role and responsibilities with respect to the
protection of air and support the establishment of a system to monitor the progress of EPA homeland
security efforts. In support of these goals, a number of actions are currently underway.

•     The Homeland Security Strategic Plan update is nearing completion and is currently undergoing
      a quality control review. The updated Plan should be submitted to the EPA Administrator in early
      Calendar Year 2004.
•     Following completion of the Homeland Security Strategic Plan update, the Office of Homeland
      Security (OHS) will develop a system to monitor progress on commitments in the Plan and assist
      with implementation, as appropriate.
•     OHS holds weekly information sharing sessions that provide a forum for all EPA programs with
      homeland security responsibilities to share information on ongoing and special projects, homeland
      security meetings, and other homeland security-related activities.
•     The OHS Director has visited nearly all regions and met with Regional Administrators and Deputy
      Regional Administrators, as well as Regional Incident Coordination Teams, to clarify OHS’s role,
      discuss Administration and Agency-wide priorities, and learn about regional-specific issues.
•     Region 3 was recently designated as the Lead Region for Homeland Security. Region 6 was
      designated as the Back-up to Region 3. OHS has met with Regions 3 and 6 to flesh-out the Lead
      Region responsibilities, and Regions 3 and 6 are now working with the other regions to solicit
      additional input.

                                                  11
•     OHS works collaboratively with the Program Offices, laboratories, Regions, and the
      Administrator’s Homeland Security Policy Coordination Committee on matters related to
      homeland security policy development.

     OHS remains committed to actively implementing responsibilities that are clearly delegated to EPA
pursuant to Homeland Security Presidential Directives and national response plans and structures.
However, it is important to recognize that homeland security is a new and evolving priority for EPA and
for many other federal agencies, including the Department of Homeland Security (DHS).

       Your Report states that EPA’s responsibilities for emergency response have become ambiguous,
and questions remain about our role in future events. EPA’s role in responding to terrorist incidents is
not, and should not, be the same in all cases. As seen in the various anthrax cleanups, EPA may lead the
response or provide oversight and/or technical assistance, depending on the specific circumstances. This
is consistent with the National Contingency Plan, which provides EPA with the authority to lead
responses (1) where there is an emergency situation, (2) when the response is not being conducted
effectively, or (3) when the capabilities of the responsible party are exceeded. Additionally, EPA is a
participant on the writing group developing the new National Response Plan, and has raised the potential
for inconsistencies between the role of the On-Scene Coordinator and the Primary Federal Official.
With discussions currently underway, at this point it would be inappropriate to speculate on the final
resolution of this issue.

      Finally, I would like to clarify the roles and responsibilities of the Office of Homeland Security and
the distinction between the responsibilities delegated to OHS versus those that remain with the Program
Offices and EPA Regional Offices. OHS is responsible for:

•     Ensuring implementation of the Agency’s Homeland Security Strategic Plan;
•     Facilitating and coordinating homeland security policy development across the Agency;
•     Serving as primary liaison and representative, as appropriate, for senior officials in the Department
      of Homeland Security and White House Homeland Security Council;
•     Serving as a primary liaison for senior officials at other federal agencies with responsibilities for
      homeland security;
•     Serving as primary liaison on matters relating to homeland security among AO, Headquarters
      program offices, Regional offices, and EPA laboratories; and
•     Establishing a more centralized and efficient system for receiving and evaluating important classified
      communications from multiple sources.

      In reviewing the draft report we identified a number of issues and statements that we feel need to
be corrected and/or clarified. The attached table reflects these suggestions and clarifications. If you
have any questions, please contact Laura Flynn of my staff at 202 564-4611.

cc: S. Johnson
    T. Gibson
    R. McKeown

                                                     12
                                                                                        Appendix B

                                   Distribution List

EPA Headquarters

   Director, Office of Homeland Security
   Assistant Administrator, Office of Air and Radiation
   Assistant Administrator, Office of Prevention, Pesticides, and Toxic Substances
   Assistant Administrator, Office of Research and Development
   Assistant Administrator, Office of Solid Waste and Emergency Response
   Audit Followup Coordinator, Office of Air and Radiation
   Audit Followup Coordinator, Office of Prevention, Pesticides, and Toxic Substances
   Audit Followup Coordinator, Office of Research and Development
   Audit Followup Coordinator, Office of Solid Waste and Emergency Response
   Associate Administrator for Congressional and Intergovernmental Relations
   Associate Administrator, Office of Public Affairs

EPA Office of Inspector General

   Inspector General
   Assistant Inspector General for Program Evaluation
   Deputy Assistant Inspector General for Program Evaluation
   Assistant Inspector General for Audit
   Assistant Inspector General for Human Capital
   Assistant Inspector General for Congressional and Public Liaison
   OIG Science Advisor
   Counsel




                                                 13
